Audit Report GR-60-06-001

Office of Justice Programs Regional Information Sharing Systems Grants Awarded to the Arizona Department of Public Safety, Rocky Mountain Information Network, Phoenix, Arizona

Audit Report GR-60-06-001


October 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of Grant No. 2002-RS-CX-0001 and Grant No. 2004-RS-CX-0001 awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to the Arizona Department of Public Safety, Rocky Mountain Information Network (RMIN), Phoenix, Arizona.  RMIN is one of six projects under the Regional Information Sharing Systems, a nationwide program designed to support the regionally based information sharing systems and investigative support mechanisms for participating agencies. 

We tested RMINs accounting records to determine if reimbursement claimed under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  As of March 31, 2005, RMIN had been reimbursed $11,969,348 of the $12,354,522 grant funds awarded.

Our audit revealed that RMIN claimed and was reimbursed for unallowable costs.  We found that:  (1) grant drawdowns exceeded immediate needs; 2) financial status reports were not always accurate; and (3) RMIN was not reimbursed for grant monies provided to member agencies for investigative and confidential purposes.  Based on the deficiencies listed below, we identified dollar-related findings totaling $246,647.1   Specifically, we found:


RMIN was reimbursed $13,671 for costs charged to the grants that were not allowable or not approved by the OJP.  

	RMIN received drawdowns of grant funds in excess of its immediate disbursement requirements.

	Financial status reports and progress reports were not always accurate.

	Vehicles used for the conduct of project business by the Deputy Director, Administrative Services Manager, and Equipment Technician, were not justified.  

	Member agencies have not reimbursed RMIN when they received forfeited assets through RMIN funded investigations, and as a result, we identified $232,976 in enhanced revenue.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.

 



Footnote

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.